December 6, 2010

VINCENT H. DEVITO JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Postal Service Officers’ Travel and Representation Expenses
         for Fiscal Year 2010 (Report Number FT-AR-11-003)

This report presents the results of our audit of the U.S. Postal Service officers’ travel
and representation expenses for fiscal year (FY) 2010 (Project Number
10BG002FT000). We conducted the audit in response to the Board of Governors’
(Board) policies and procedures requiring annual audits of officers’ travel and
representation expenses.1 Our audit objective was to determine whether travel and
representation expenses claimed by Postal Service officers were properly supported
and complied with Postal Service policies and procedures.2 This audit addresses
financial risk. See Appendix A for additional information about this audit.

The Board has authorized 50 Postal Service officer positions. These officers are
reimbursed for actual expenses incurred on official travel. They are also reimbursed for
representation expenses incurred with customer, industry, or employee groups with
whom the Postal Service conducts official business.

Conclusion

Based on the judgmental sample results, officers’ travel and representation expenses
totaling approximately $628,000 were properly supported and complied with Postal
Service policies and procedures. Accordingly, we are not making any
recommendations.

Progress on Prior Year Observation

In a previous audit, we observed that officers did not always comply with guidelines
while claiming expenses incurred during official travel and for representation.3 Because
these issues were not material and management conducted training during FY 2009, we

1
  Representation expenses nearly always involve one or more non-Postal Service employees (suppliers, customers,
and foreign postal administrators) and a Postal Service officer.
2
  The audit universe was limited to reimbursements processed through the eTravel System.
3
  Postal Service Officers’ Travel and Representation Expenses for Fiscal Year 2009 (Report Number FT-AR-10-007,
dated February 2, 2010).
Postal Service Officers’ Travel and Representation                 FT-AR-11-003
 Expenses for Fiscal Year 2010


did not make a recommendation at that time. During FY 2010, we did not identify any
issues regarding the use of government travel cards and timely submission of claims.
Accordingly, we consider this issue closed.

We are not making any recommendations in this report. As a result, management chose
not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
additional questions or need additional information, please contact Lorie Nelson,
director Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Julie S. Moore
    Stephen J. Nickerson
    Corporate Audit and Response Management




                                                     2
Postal Service Officers’ Travel and Representation                                     FT-AR-11-003
 Expenses for Fiscal Year 2010


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. As part of these audits, the Board adopted
policies and procedures that require annual audits of officers’ travel and representation
expenses.

Officers shape the strategic direction of the Postal Service by setting goals, targets, and
indicators within the framework established by the Board. Their positions are classified
as Postal Career Executive Service II and include the postmaster general, deputy
postmaster general, and all vice presidents. The Board has authorized 50 Postal
Service officer positions.

Officers are reimbursed for actual expenses incurred on official travel. They are also
reimbursed for representation expenses incurred with customer, industry, or employee
groups with whom the Postal Service conducts official business. Postal Service policy
requires officers to claim reimbursement for all travel and representation expenses
through the eTravel system.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether travel and representation expenses
claimed by Postal Service officers were properly supported and complied with Postal
Service policies and procedures. In support of this objective, we judgmentally sampled
and reviewed 69 reimbursements,4 a minimum of 15 each quarter, from a universe of
714. The universe of reimbursements was from October 1, 2009, through September
30, 2010. We conducted fieldwork from January through October 2010.

We used the following criteria in evaluating reported expenses:

   Postal Service Officers’ Travel and Representation Expense Guidelines issued by
    the postmaster general on April 13, 2009.

   Handbook F-15, Travel and Relocation, dated February 2004, updated with Postal
    Bulletin revisions through December 20, 2007.

   Various management instructions.5



4
  We included at least one reimbursement for each officer and all reimbursements of $7,000 and above.
5
  Management Instructions include (1) FM-640-2004-1, Government Issued, Individually Billed Travel Charge Cards,
dated June 1, 2004; (2) FM-640-2008-1, Expenses for Internal and External Events, dated September 10, 2008; and
(3) FM-640-1999-3, Travel Expense Charges For Meetings, dated April 9, 1999.




                                                        3
      Postal Service Officers’ Travel and Representation                             FT-AR-11-003
       Expenses for Fiscal Year 2010


      We conducted this performance audit from January through December 2010 in
      accordance with generally accepted government auditing standards and included such
      tests of internal controls as we considered necessary under the circumstances. Those
      standards require that we plan and perform the audit to obtain sufficient, appropriate
      evidence to provide a reasonable basis for our report and conclusions based on our
      audit objective. We believe the evidence obtained provides a reasonable basis for our
      report and conclusions based on our audit objective.

      We assessed the reliability of eTravel data by tracing reimbursement amounts claimed
      in eTravel to data in the Accounting Data Mart (ADM) system. Moreover, we verified the
      data was posted to the appropriate general ledger accounts in ADM. We determined the
      data were sufficiently reliable for the purposes of this report.

      PRIOR AUDIT COVERAGE

      We issued the following reports addressing officers travel and representation expenses.

                                                         Final
                                     Report
         Report Title                                   Report                    Report Results
                                     Number
                                                         Date
Postal Service Officers’ Travel   FT-AR-10-007         2/4/2010   See “Progress On Prior Year Observations”
and Representation Expenses                                       section of this report.
for Fiscal Year 2009
Postal Service Officers’ Travel   FT-AR-09-006        1/20/2009   Based on the sample results, travel and
and Representation Expenses                                       representation expenses totaling approximately
for Fiscal Year 2008                                              $1.2 million incurred by officers were generally
                                                                  supported. However, we found written pre-
                                                                  authorizations were not always obtained for
                                                                  domestic first-class airfare or for attendance of
                                                                  spouses at official events and spousal expenses
                                                                  were sometimes claimed in eTravel. Also, officers
                                                                  did not always use government travel cards or
                                                                  submit claims in a timely manner. Management
                                                                  agreed with our recommendation and conducted
                                                                  refresher training on proper travel procedures.
                                                                  Accordingly, this recommendation is closed.
Postal Service Officers’ Travel   FT-AR-08-004       12/20/2007   Based on the sample results, travel and
and Representation Expenses                                       representation expenses totaling approximately
for Fiscal Year 2007                                              $900,000 incurred by officers for the year ended
                                                                  September 30, 2007, were properly supported and
                                                                  complied with Postal Service policies and
                                                                  procedures. We made no recommendations.




                                                           4
